         Oversight Review                               April 15, 2011


              Hotline Allegations Concerning a
         Field Audit Office in the Defense Contract
                Audit Agency Central Region

                       Report No. D-2011-6-007


                                          Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the approval of
the Department of Defense, Office of Inspector General.”
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at www.dodig.mil/audit/reports or contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax
  (703) 604-8982.

  Suggestions for Future Reviews
  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-8982. Ideas and requests can also be mailed to:


                           Office of the Assistant Inspector General
                                for Audit Policy and Oversight
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 833)
                                  Arlington, VA 22202-4704




Acronyms

DCAA         Defense Contract Audit Agency
GAGAS        Generally Accepted Government Accounting Standards
GAO          Government Accountability Office
WHS-CAF      Washington Headquarters Services Consolidated Adjudications Facility



                                FOR OFFICIAL USE ONLY
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DR IVE
                                ARLINGTON, VIRG INIA 22202-4704




                                                                                 April 15,2011

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Report on Hotline Allegations Concerning a Field Audit Office in the Defense
         Contract Audit Agency Central Region (Report No. D-2011-6-007)

We are providing this report for your information and use. We reviewed a DOD Hotline
complaint and substantiated four of the six allegations contained within the complaint. We
substantiated that the supervisor of a field office in the Defense Contract Audit Agency (DCAA)
Central Region unnecessarily caused a delay in the complainant's promotion from grade 9 to
grade II, failed to provide adequate supervision and on-the-job training, and improperly
removed an audit finding. The manager of the same office also created an unprofessional work
enviromuent. DCAA is undertaking several corrective actions, such as improving its on-the-job
training program.

We considered management comments on a draft of this report when preparing the final report.
The Defense Contract Audit Agency comments conformed to the requirements of DOD
Directive 7650.3; therefore, additional comments are not required.

We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8777 (DSN 664-8777), or carolyn.davis@dodig.mil.



                               .~~
                                   Randolph R. Stone, SES
                                   Deputy Inspector General
                                   for Policy and Oversight




                                FOR OFFICIAL USE ONLY
   Report No. D-2011-6-007 (Project No. D2010-DIP0AI-0184.000)                              April 15, 2011


                    Results In Brief: Hotline Allegations
                    Concerning a Field Audit Office in the
                    Defense Contract Audit Agency
                    Central Region

What We Did                                         What We Recommend
                                                    The DCAA Director needs to evaluate the
We reviewed the DOD Hotline complaint               adequacy of the procedures and establish
alleging that Defense Contract Audit Agency
                                                    controls that ensure the timely reporting of
(DCAA) management at a field office in the          derogatory events, processing of career-ladder
Central Region harassed the complainant and
                                                    promotions, and preparation of employee
took other inappropriate management actions.
                                                    performance appraisals. In addition, the DCAA
                                                    Director should evaluate the significance of a
What We Found                                       finding dropped by the supervisor and rescind
We substantiated four of the six allegations        the underlying report if appropriate. Finally, the
listed in the complaint. We substantiated that      DCAA Director should consider strengthening
the supervisor unnecessarily caused a delay in      the mentor program to help ensure that non-
the complainant’s promotion from grade 9 to         senior auditors receive adequate on-the-job
grade 11, the supervisor failed to provide          training.
adequate supervision and on-the-job training,
the supervisor improperly removed an audit          Management Comments
finding, and the manager created an
                                                    In responding to a February 24, 2011 draft of
unprofessional work environment. We did not
                                                    this report, DCAA agreed with all findings and
substantiate the remaining two allegations that a
                                                    recommendations, except with our position that
security reinvestigation was used as harassment,
                                                    the complainant’s promotion cannot be
and the supervisor based her rating entirely on
                                                    retroactively changed (See Finding B). The
metrics. DCAA’s Internal Review team also
                                                    DOD Inspector General and DCAA will jointly
conducted a comprehensive investigation of the
                                                    request assistance from the DOD Office of the
allegations. We examined the investigation file
                                                    General Counsel to resolve this matter. DCAA
and draft findings as part of our review.
                                                    provided an adequate plan for implementing all
                                                    recommendations.


                                                      United States Department of Defense Office of Inspector General
                                                                   (Project No. D2010-DIP0AI-0184.000)
                                                                          Report No. D-2011-6-007
                                                                               April 15, 2011




                                              i
                                    FOR OFFICIAL USE ONLY
Table of Contents

Introduction

      Objectives                                                              1
      Background                                                              1

Finding A. Security Reinvestigation Used as Harassment                        3

Finding B. Delayed Promotion Due to Clerical Error                            5

Finding C. Appraisal Rating Based Entirely on Metrics                         7

Finding D. Finding Improperly Removed from Audit Report                      10

Finding E. Failure to Adequately Supervise and Provide On-the-Job Training   12

Finding F. Unprofessional Workplace                                          14

Management Comments on Findings and Our Response                             16

Recommendations, Management Comments, and Our Response                       16

Appendix

      Scope and Methodology                                                  19
      Prior Coverage                                                         19

Management Comments

      Defense Contract Audit Agency                                          20




                              FOR OFFICIAL USE ONLY
Introduction
Objectives
We conducted this review to determine the validity of allegations received by the DOD
Hotline concerning abuse and other actions that the Defense Contract Audit Agency took
against the complainant. The complainant alleges the following:

       A. A security reinvestigation was used as a form of harassment against her.
       B. Her promotion from grade 9 to grade 11 was unnecessarily delayed.
       C. The supervisor based her FY 2008 rating entirely on productivity metrics and
          failed to consider her learning a contractor’s new accounting system.
       D. Management failed to adequately supervise her or provide adequate on-the-
          job training.
       E. The supervisor improperly removed an audit finding from one of her draft
          audit reports.
       F. The branch manager created an unprofessional workplace.

See Appendix A for details of our scope and methodology.

Background
Defense Contract Audit Agency (DCAA)
In accordance with DOD Directive 5105.36, DCAA performs contract auditing and
provides accounting and financial advisory services in connection with the negotiation,
administration and settlement of contracts and subcontracts. DCAA operates under the
authority, direction, and control of the Under Secretary of Defense (Comptroller).

Organizationally, DCAA includes a Headquarters, Field Detachment, and five regions:
Central, Eastern, Mid-Atlantic, Northeastern, and Western. Each region has several field
audit offices. The allegations addressed in this report involve a field audit office in
DCAA’s Central region.

As a Government audit organization, DCAA must comply with applicable generally
accepted government auditing standards (GAGAS) issued by the Comptroller General of
the United States. GAGAS incorporates the standards issued by the American Institute of
Certified Public Accountants. The DCAA Contract Audit Manual prescribes auditing
policies and procedures for performing audits in support of the DCAA mission. The
Contract Audit Manual incorporates GAGAS into its guidance.

DCAA’s Quality Assurance Division is responsible for the management and execution of
DCAA’s quality assurance program. It performs formal quality reviews based on




                                       1
                             FOR OFFICIAL USE ONLY
guidelines established by the Council of Inspectors General on Integrity and Efficiency1,
and other quality assurance projects on both an agency-wide and regional basis. In
performing its reviews and quality assurance projects, the Quality Assurance Division
assesses compliance with applicable regulations, auditing standards, the DCAA Contract
Audit Manual, and other agency procedures.

The DCAA Internal Review Team
The DCAA Internal Review Team investigates allegations of wrongdoing made against
Agency employees. The team also serves as a resource for resolution of workplace-
related concerns. The Internal Review team received the complaint addressed in this
report and performed its own investigation of the allegations. We examined Internal
Review’s investigation file and draft report as part of our review of the allegations.

The Government Accountability Office (GAO)
GAO issued two reports addressing DCAA work environment and audit quality issues,
including one in July 2008 2 and the other in September 2009 3. The 2008 report
addressed frequent DCAA management actions that served to intimidate auditors, impair
some audits, and create an abusive environment at two of three offices covered in its
investigation. The 2009 report noted that nationwide audit quality problems were rooted
in DCAA’s poor management environment and culture, which included DCAA’s focus
on a production-oriented mission and the establishment of policies, procedures, and
training that emphasized performing a large quantity of audits over audit quality.

After the 2008 GAO report, the DOD Hotline received a significant increase in the
number of complaints regarding work environment issues at DCAA, including the hotline
complaint addressed in this report. The allegations addressed in this report involve some
of the same issues reported by GAO.




1
  The Council of Inspectors General on Integrity and Efficiency was established by the Inspector General
Reform Act of 2008 (P.L. 110-409). Prior to its establishment, Federal Inspectors General operated under
the auspices of two councils: the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency. It was established to address integrity, economy, and effectiveness issues that
transcend individual Government agencies; and increase the professionalism and effectiveness of personnel
by developing policies, standards, and approaches to aid in the establishment of a well-trained and highly
skilled workforce in the Offices of the Inspectors General.
2
  Report No. GAO-08-857, “DCAA AUDITS: Allegations That Certain Audits at Three Locations Did Not
Meet Professional Standards Were Substantiated,” July 22, 2008.
3
  Report No. GAO-09-468, DCAA AUDITS: “Widespread Problems with Audit Quality Require
Significant Reform,” September 23, 2009.



                                             2
                                   FOR OFFICIAL USE ONLY
Finding A. Security Reinvestigation Used as
Harassment
We did not substantiate the allegation that DCAA used a security reinvestigation as
harassment against the complainant. However, DCAA needs to reassess the adequacy of
its procedures and establish controls for making prompt notification of potentially
derogatory information that could affect an employee’s continued security eligibility.

Allegation. The complainant alleges that the DCAA Security Officer harassed her by
demanding that she complete a security questionnaire following a cell phone
conversation she had with a friend in which she expressed frustration about working with
her supervisor. During the conversation, the complainant acknowledges that she
commented “I might as well                    ” but explained that she only meant it as a
figure of speech in expressing her frustration about working for her supervisor. The
complainant states that a coworker who overheard the conversation took her comment out
of context when the coworker reported it to management.

Background. The complainant has worked as an auditor with DCAA since 2002. On
February 25, 2009, two coworkers advised management that they were concerned about
the well-being of the complainant because the complainant had made comments to them
about                                On March 2, 2009, management counseled the
complainant and suggested that she consider utilizing the Employee Assistance
Program 4. On March 4, 2009, management reported the February 25, 2009 incident to
the DCAA Security Officer stationed at Fort Belvoir, Virginia. The DCAA Security
Officer obtained written witness statements from the complainant and three others in the
office concerning the incident. The DCAA Security Officer notified the Washington
Headquarters Services Consolidated Adjudications Facility (WHS-CAF) of the incident
and provided copies of the witness statements. WHS-CAF is responsible for determining
security clearance eligibility for employees at several DOD agencies, including DCAA.
On August 9, 2009, following its review of the incident, WHS-CAF and the DCAA
Security Officer issued memorandums to the complainant requesting that she complete
Standard Form 85P 5, Questionnaire for Public Trust Positions. The memorandums
advised the complainant that failure to complete the questionnaire could result in
termination of her security clearance and job duties. The complainant refused to
complete the questionnaire because she felt it was a form of harassment and an
unnecessary invasion of privacy.

DCAA’s Internal Review team reviewed this allegation and tentatively concluded that the
request for completion of Standard Form 85P did not constitute a form of harassment.

4
  All Federal agencies provide Employee Assistance Programs. Basic program services include cost-free
and confidential assessment, counseling, referral, and follow-up to employees who have personal or work-
related problems that might affect work attendance, performance, or conduct.
5
 Standard Form 85P is a questionnaire used for Secret and Public Trust Security background checks.
Employee or candidate responses to the questionnaire are used to begin the process of investigating
whether they are suitable for public trust or sensitive positions.


                                            3
                                  FOR OFFICIAL USE ONLY
Our Review.. We obtained and reviewed the witness statements provided to the DCAA
Security Officer. While the complainant’s statement indicates that she was speaking to a
friend over the cell phone, the two coworkers’ statements reflect that the complainant had
approached them in person, crying and stating, “I might as well                        ”
The acting manager’s written statement indicates that the coworkers immediately
reported the complainant’s comments to her. The acting manager’s written statement
also indicates that on February 23, 2009, two days prior to the incident, the complainant
spoke to her about an appraisal she received from her supervisor. According to the acting
manager’s written statement, the complainant told her that the appraisal was so upsetting
that “it caused her to                                                                    ”

        Applicable Criteria. We reviewed applicable DCAA policies, and DOD
directives. According to DOD Directive No. 5105.36, Defense Contract Audit Agency,
agency security actions must comply with procedures prescribed in DOD 5200.2-R,
Personnel Security Program. Paragraph C2.2.1 of DOD 5200.2-R lists the criteria for
determining security clearance eligibility. Under Paragraph C2.2.1.10, the criteria
includes:

Any behavior or illness, including any mental condition, which, in the opinion of competent
medical authority, may cause a defect in judgment or reliability with due regard to the
transient or continuing effect of the illness and the medical findings in such case.

Clearly, the complainant’s comments made on February 25, 2009, regarding a
                     qualified as a potentially derogatory event under paragraph
C2.2.1.10. Further, paragraph C8.1.2.1 of DOD 5200.2-R states:

Whenever derogatory information related to the criteria and policy set forth in paragraph
C2.2.1 and Appendix 8 of this regulation becomes available….it shall be referred by the most
expeditious means to the commander or the security officer of the organization….The
commander of the duty organization shall insure that the appropriate Central Adjudicative
Facility (CAF) of the individual concerned is informed promptly concerning (1) the
derogatory information developed….(emphasis added)

Paragraph C9 of DOD 5200.2-R outlines the responsibilities for evaluating and reporting
the continued security eligibility of employees, including management, the individual
under evaluation, and coworkers. Paragraph C9.1.5 states that coworkers have an
obligation to advise their supervisor or a security official when they become aware of
information with potentially serious security significance.

DCAA and WHS-CAF Actions. The coworkers, DCAA Security Officer, and WHS-CAF
complied with applicable DOD requirements in this circumstance. As DOD 5200.2-R,
paragraph C9 requires, DCAA management and coworkers had an obligation to report
this incident to the DCAA Security Officer because it qualified as potentially derogatory
information that could affect security clearance eligibility. In turn, the DCAA Security
Officer had an obligation to report the incident to the WHS-CAF for its consideration and
appropriate action. The WHS-CAF request that the complainant complete Standard
Form 85P was appropriate in order to reassess the complainant’s continued security


                                            4
                                  FOR OFFICIAL USE ONLY
eligibility in accordance with DOD 5200.2-R, paragraph C9.1. Therefore, we did not
substantiate the allegation that DCAA used a security reinvestigation as harassment
against the complainant.

However, we question why the acting manager took 7 days to report this incident to the
DCAA Security Officer. While the incident occurred on February 25, 2009, the acting
manager did not report it to the DCAA Security Officer until March 4, 2009. The acting
manager’s delay in reporting the incident is not consistent with paragraph C8.1.2.1 of
DOD 5200.2-R, requiring that such information be “referred by the most expeditious
means.” The 7-day delay could have jeopardized the safety and security of the
complainant and the office as a whole. The acting manager told us that while she was
concerned about the well-being of the complainant, she was very busy with audit matters
at the time and was unsure of what she should do. The acting manager told us that she
does not recall receiving any training on management responsibilities for reporting
potentially derogatory incidents (“derogatory” as defined in DOD 5200.2-R). Ensuring
employee safety and security must be a top priority for DCAA management.

Our review of the training provided to new supervisors disclosed that DCAA does not
address the reporting responsibilities for management contained in DOD 5200.2-R.
DCAA should perform a comprehensive review of its policies, procedures, and training
for reporting potentially derogatory events to ensure compliance with the requirements
contained in Paragraph C9 of DOD 5200.2-R. In a December 6, 2010, memorandum, the
Under Secretary of Defense for Intelligence attached the “Roles and Responsibilities for
Personnel Security: A Guide for Supervisors,” which was developed to assist
commanders and supervisors in the early identification and intervention of behaviors that
might jeopardize the well-being of the workforce and national security. DCAA should
incorporate this guide in its training curriculum for supervisors and managers.


Finding B. Delayed Promotion Due to
Clerical Error
We substantiated that DCAA had unnecessarily delayed the complainant’s promotion
from grade 9 to grade 11 by over two months. While the complainant had met all the
requirements for promotion, the supervisor did not fulfill his responsibility of completing
the required paperwork in a timely manner. DCAA should review its procedures and
controls to help ensure that promotions occur in a timely manner when all requirements
for promotions are met.

However, based on our review of applicable Comptroller General Decisions, the
complainant is not entitled to a retroactive promotion or back pay because the delay
occurred prior to approval of the promotion.

Allegation. The complainant stated that DCAA had unjustifiably delayed her promotion
from grade 9 to grade 11 by over two months in 2003 due to a clerical error. The
complainant requested that DCAA change her promotion date from September 21, 2003


                                       5
                             FOR OFFICIAL USE ONLY
to July14, 2003. The complainant pointed out that her annual step increases are always
late because of the delay, which causes a reduction in her total annual salary.

Background. DCAA hired the complainant as a grade 9 level auditor trainee. DCAA
generally promotes auditors to grade 11 after serving 1 year at the grade 9 level, if the
auditor’s appraisal rating is “fully successful” or higher. The complainant served 1 year
at the grade 9 level as of July 14, 2003, and her overall appraisal rating was “fully
successful.” However, the complainant did not receive her promotion to grade 11 until
September 21, 2003. Shortly after the delayed promotion, the complainant said that she
asked the Human Resources department to change the effective date of her promotion to
July 14, 2003. However, the Human Resources department told her that they could not.

DCAA’s Internal Review team investigated this allegation and has tentatively
substantiated that the complainant’s promotion from grade 9 to grade 11 was
unjustifiably delayed.

Our Review. We interviewed the employee who supervised the complainant in 2003.
The supervisor stated the complainant had asked him about the status of her promotion
sometime in September 2003 (the supervisor does not recall the exact day). Immediately
following that discussion, the supervisor recalled completing the paperwork for her
promotion and sending it to the Human Resources department for processing. The
supervisor stated that he had intended to promote the complainant on time (after
serving 1 year as a grade 9 auditor). He pointed out that the administrative staff normally
forwards an email reminding supervisors of pending promotions, but he did not receive a
reminder in the case of the complaintant’s pending promotion.

We reviewed DCAA procedures applicable to granting and processing auditor
promotions. The DCAA Personnel Manual, Chapter 16, Section 2-3, entitled Career
Ladder Progression (promotions from grade 5 to grade 12), emphasizes that supervisors
are responsible for promoting their subordinates in a timely manner. It states,
“Supervisors are responsible for ensuring that their subordinates in grades below the GS-
12 journeyman level progress to each step of the career ladder as rapidly as demonstrated
performance warrants and time-in grade restrictions are met.”

The supervisor said the instructor of his supervisory training class told class attendees
that supervisors were not required to monitor pending promotions because they should
receive reminder notices. Regardless of not receiving a reminder notice in this case, the
supervisor was ultimately responsible for ensuring the complainant’s timely promotion.
This delay in processing the complaintant’s promotion is inexcusable. Given that this
delay took place over 7 years ago, DCAA procedures for processing promotions might
have changed significantly. DCAA should review the adequacy of its current training
and procedures and if they are inadequate, establish procedures and controls to help
ensure timely promotions of employees when they meet performance, time in-grade, and
other applicable requirements.

Based on our review of applicable law and Comptroller General Decision precedent, the
complainant is not entitled to back pay or a retroactive promotion. According to the Back

                                       6
                             FOR OFFICIAL USE ONLY
Pay Act [5 U.S.C. 5596(b)(1)], an employee of an agency is entitled to back pay when the
employee has been affected by an unjustified or unwarranted personnel action which
resulted in the withdrawal or reduction of the employee's pay, allowances or differentials.

However, the Comptroller General of the United States 6, in the matter of Marianna
Mehutcs, file no. B-261592, November 13, 1995, ruled that where delay precedes the
approval by the authorizing official, no administrative intent to promote can be
established so as to support a claim for retroactive promotion. The decision states in part:

                 …Employees have no vested right to be promoted at any specific time….In
                 cases involving approval of a retroactive promotion on the grounds of
                 administrative or clerical error, the authorizing official must approve the
                 promotion. Thus a distinction is drawn between those errors that occur
                 prior to approval of the promotion by the properly authorized official and
                 those that occur after such approval but before the acts necessary to
                 effectuate the promotion have been fully carried out.… Where the error or
                 omission occurs before he exercises that discretion, administrative intent to
                 promote at any particular time cannot be established.…In determining if an
                 exception can be made and a retroactive promotion can be granted, the
                 cause of the delay is less important than when the delay occurs.

Consequently, based on this Comptroller General decision, the effective date of the
complainant’s promotion cannot be retroactively changed because the delay occurred
before the authorizing official approved it.


Finding C. Appraisal Rating Based Entirely
on Metrics
We did not substantiate the complainant’s allegation that her FY 2008 appraisal ratings
were based solely on productivity “metrics.” In addition, we did not substantiate that the
appraisal ratings failed to consider her learning a contractor’s new electronic accounting
system.

Allegation. The complainant believes that the supervisor evaluated her solely on metrics
in her FY 2008 mid-year and annual appraisals, and did not take into consideration that
she learned the contractor’s new electronic accounting system.

Background. The complainant received a mid-year and an annual appraisal covering her
performance in FY 2008 (October 1, 2007 through September 30, 2008). According to
DCAA procedure, a mid-year appraisal involves a discussion between the supervisor and
the employee on employee performance, which the supervisor documents in a
memorandum for the record. The supervisor does not assign a specific rating in the mid-
year appraisal. In contrast, the annual appraisal serves to formally rate the employee’s

6
  The Comptroller General, the head of the Government Accountability Office, issues decisions on various
topics such as appropriations law, bid protests, and other areas of Federal law. The Office of General
Counsel is the Government Accountability Office that prepares these decisions.


                                            7
                                  FOR OFFICIAL USE ONLY
degree of proficiency against five pre-established job elements. For each element,
employee performance is rated on a 5-level scale (highest to lowest): outstanding,
exceeds fully successful, fully successful, minimally successful, and unacceptable. Using
the same 5-level scale, an overall rating is determined based primarily on the majority
rating of the five elements. In support of the appraisal, supervisors often provide
narrative comments on employee performance. In the mid-year appraisal, DCAA
procedures require narrative comments when employee performance has deteriorated or
is less than fully successful. In the annual appraisal, narrative comments are required
when any job element is rated outstanding, minimally successful, or unsuccessful.

Effective September 30, 2008 (the last day of the complainant’s FY 2008 performance
period), DCAA eliminated several productivity metrics to emphasize audit quality in
response to the July 2008 GAO report. Agency-wide, DCAA eliminated 18 productivity
metrics, developed 8 new performance measures, and re-emphasized its policy on zero-
based budgeting 7.

DCAA’s Internal Review team investigated this allegation and has tentatively not
substantiated it.

Our Review. We examined the complainant’s FY 2008 mid-year and annual appraisals.
In her annual appraisal, the complainant received an overall rating of fully successful,
based on one job element rated “exceeds fully successful” (Audit Program Preparation,
Revision, and Execution) and four rated “fully successful.” We noted the following
regarding each aspect of the allegation.

Appraisal Rating Based Solely on Metrics. Both the mid-year and annual appraisals
included narrative comments on complainant’s timeliness and productivity. In the mid-
year appraisal, the supervisor commented that the complainant did not complete assigned
work in a timely manner, and had significantly overrun her budgeted hours on each
assignment. The supervisor listed several specific recommendations for improving the
complainant’s performance. In the annual appraisal, the supervisor commented on audit
quality as well as timeliness and productivity. For example, the supervisor wrote the
following:
                 Your working papers are documented to a very detailed level, which is good,
                 and your conclusions typically are accurate and supported.

                 As discussed at mid-year, timeliness is a concern in these areas…I’m afraid
                 over-analysis and somewhat lack of organization contributes to your taking
                 longer to complete jobs than planned. I believe that if you specifically define
                 your audit steps–in coordination with the supervisor–and be aware when
                 straying from the audit plan, this should show good improvement.


The supervisor also commented that the complainant worked independently, but
reminded the complainant to keep the supervisor informed of audit issues as they arise.

7
 Zero-based budgeting is the process during which the supervisor and the auditor discuss and agree on the
budgeted hours required to perform an audit based on the risk assessment, audit scope, and audit program.


                                            8
                                  FOR OFFICIAL USE ONLY
Based on our review of the FY 2008 appraisals, we did not substantiate that they were
based solely on productivity metrics. The annual appraisal addressed audit quality and
productivity issues, including constructive recommendations for improving future
performance. Although these appraisals focused primarily on productivity issues, they
were prepared in accordance with agency guidance in effect during FY 2008. The
revised metrics and additional measures designed to emphasize audit quality did not take
effect until September 30, 2008 (the last day of the complainant’s appraisal period). As
part of our review of the complainant’s audit files, we noted that the complainant had not
adequately coordinated with the supervisor on the progress of her audits or the
circumstances requiring significant additional time to complete the audit steps.
Regardless of the revised productivity metrics, auditors have a responsibility of keeping
the supervisor informed as significant problems occur during an audit. In accordance
with GAGAS 6.04a and CAM section 2-302.2(a) and (i), auditors and supervisors should
have a mutual understanding of the scope required to meet the audit objectives and ensure
adequate planning and supervision of the audit.

Although the FY 2008 appraisals criticize the complainant for not being timely, we also
noted that the supervisor did not prepare these evaluations or discuss them with the
complainant in a timely manner. The complainant received her mid-year appraisal on
July 28, 2008, only 2 months before the end of the appraisal period (September 30,
2008). She received her annual appraisal in February 2009, nearly 5 months after the end
of the appraisal period. According to DCAA Central Region procedure, the supervisor
was required to discuss the FY 2008 annual appraisal with the complainant by
October 24, 2008. Therefore, the complainant received her appraisal approximately 4
months beyond the required due date. The extent of the delay in this case is
unacceptable. Appraisals and other forms of feedback must be timely in order for them
to be effective in documenting employee performance and correcting any performance
issues. DCAA needs to review the adequacy of its procedures and establish controls to
ensure timely employee appraisals.

Learning the Contractor’s Electronic Accounting System. The complainant’s appraisals
included specific comments about the complainant’s use of the contractor’s electronic
accounting system. The complainant’s mid-year appraisal includes the following specific
comments regarding her use of the contractor’s electronic accounting system:

             While you are probably the most experienced in the office at working with [the
             contractor’s electronic accounting system] and have learned a lot of valuable
             information about working with the system, you should not expect [the
             contractor’s electronic accounting system] queries to answer all questions. I don’t
             want to discourage use of [the contractor’s electronic accounting system] in our
             auditing, but I want you to be more selective in what you run. (electronic
             accounting system name omitted)




                                          9
                                FOR OFFICIAL USE ONLY
The complainant’s annual appraisal includes the following comment:

               You are a frequent and eager user of the contractor’s [electronic accounting
               system], which can be a significant time-saver on audits. (electronic accounting
               system name omitted)

This comment appears to serve, in part, as justification for rating the complainant exceeds
fully successful (second highest rating) on one of the rated job elements. Therefore, we
did not substantiate the allegation that the appraisal failed to consider the complainant
learning the contractor’s accounting system.


Finding D. Finding Improperly Removed
from Audit Report
We substantiated the complainant’s allegation that her supervisor improperly removed an
audit finding from one of the complainant’s audit reports she drafted. In noncompliance
with DCAA procedure, the supervisor did not document any rationale for dropping the
audit finding, and we found no evidence that the supervisor coordinated with the
complainant before he removed it.

Allegation. The complainant states that her supervisor deleted a finding from one of her
audit reports without her knowledge.

Background. In Novemver 2008, DCAA’s Quality Assurance Division performed a
post-quality review of one of the complainant’s completed assignments involving her
audit of the contractor’s Earned Value Management System (issued on July 21, 2008).
During the post-quality review, the complainant discovered that one of the findings
included in her draft report of this assignment had been dropped from the final report.
The dropped finding addressed the contractor’s use of the wrong basis for calculating
estimated price on a form submitted by the contractor. The Quality Assurance Division
noted the dropped finding in its review results. The Quality Assurance Division listed the
following exceptions regarding the complainant’s assignment:

       x   The audit report dropped a reportable condition that was identified in the
           summary working papers.
       x   The opinion contained in the audit report was inconsistent with the working
           paper evidence and was beyond the scope of the actual testing performed.
       x   DCAA did not provide the audit results to the requestor on a timely basis.
       x   Insufficient supervisory review and involvement was responsible, in part, for
           the deficiencies found in the audit. The involvement of the supervisory
           auditor was not sufficient to assure that the work was adequately performed
           and reported.

In response to these exceptions, DCAA Central Region management had the supervisor
take two training courses, which addressed supervisor responsibilities for complying with
GAGAS and the agency’s expectations for supervisors.

                                         10
                               FOR OFFICIAL USE ONLY
In a subsequent investigation, DCAA’s Internal Review team also determined that the
supervisor had inappropriately removed a reportable finding from the issued report, in
noncompliance with GAGAS. In his interview with the Internal Review team, the
supervisor said that he could not recall why report adjustments (including the dropped
finding) were made. The supervisor pointed out that the complainant had not portrayed
the dropped finding as a significant issue, and that the overall audit report opinion had not
changed. The Internal Review team confirmed that that the overall audit opinion had not
changed as a result of the dropped finding.

In addition, the Internal Review team found no evidence that the supervisor had discussed
the report changes with the auditor prior to report issuance. The Internal Review team
reviewed a record of who accessed the assignment and found that the complainant did not
access the assignment after she had submitted it to the supervisor for review. If the
supervisor had discussed his report changes with the complainant, the complainant would
have likely accessed the assignment again to review the proposed changes and make any
necessary changes to the working papers.

Our Review. We reviewed the assignment folder (including the report and working
papers) associated with the complainant’s review of the contractor’s Earned Value
Management System. We noted that on or about July 21, 2008, the supervisor had
deleted approximately 14 pages worth of tables and explanatory notes (including the
dropped finding) that the complainant had included in her 26-page draft report. The
dropped finding noted by DCAA’s Quality Assurance Division and Internal Review team
relates to the removal of the following sentence in the complainant’s draft report: “We
took exception to the contractor’s calculation for computing the Estimated Price in
Box 5.f.” Based on information contained in the working papers, we could not ascertain
the significance or the effect of this dropped finding.

We interviewed the complainant’s supervisor to discuss the changes he made to the draft
report. The supervisor explained that he omitted the audit finding referred to above
because, in his opinion, it was not a significant issue. The supervisor acknowledged that
he should have informed the complainant that he removed the audit finding.

The supervisor’s failure to discuss his proposed report changes with the complainant and
document the differences of opinion prior to the report’s issuance was inappropriate and
did not comply with existing agency procedure. DCAA’s Contract Audit Manual, section
4-403(f)(2) [July 2008 version], required the supervisor to exert every effort to reconcile
differences of opinion involving relevant and significant conclusions with the auditor,
elevate any unreconciled differences to the next management level, and ensure that the
unreconciled differences are documented in the working papers. Although the supervisor
believed that the dropped finding was insignificant, we did not find sufficient information
in the working paper file to support this assertion. Our review disclosed that the
complainant did not adequately explain or document the effect or significance of the
dropped finding in the working papers or draft report. However, the supervisor had an
obligation to discuss the potential impact with the complainant and determine if
additional audit work was required to assess the impact. The supervisor should not have


                                        11
                              FOR OFFICIAL USE ONLY
assumed that the impact of the dropped finding was insignificant without first discussing
the underlying issue with the complainant.

We could not determine conclusively whether the deleted finding was significant to the
report conclusions based on our review of the draft report and working papers. DCAA
needs to immediately assess its significance and determine whether the report should be
rescinded. The Quality Assurance Division should have recommended such action in
September 2008 when it first discovered that the supervisor had inappropriately dropped
a reportable audit finding.

GAO Report and DCAA Corrective Actions. In its July 2008 report, GAO noted
several instances where supervisors had inappropriately dropped audit findings, and the
working papers did not adequately explain why the findings were dropped. On
July 31, 2008, approximately 10 days after the supervisor dropped the audit finding in
this case, DCAA issued an “Audit Alert” memorandum to emphasize and clarify existing
procedures to follow when differences of opinion exist over audit findings. For example,
it emphasized that both the supervisor and the auditor are responsible for adequately
documenting differences of opinion in the audit file.

As noted above, the DCAA Central region required the supervisor to take revised
supervisory training courses to address supervisor responsibilities for complying with
GAGAS and the agency’s expectations for supervisors. We agree with the need to retrain
this supervisor. DCAA Headquarters has required that all supervisors take these courses,
not just this supervisor. We found no evidence that DCAA has taken other appropriate
administrative action to hold the supervisor accountable for the supervisor’s significant
failures disclosed by the Quality Assurance Division, such as dropping the audit finding
and being insufficiently involved on multiple audits. However, we noted that the
supervisor has since transferred to a non-supervisory position and Internal Review plans
to recommend appropriate action, consistent with Federal civil service laws, to hold the
supervisor accountable. As such, we have no additional recommended actions.


Finding E. Failure to Adequately Supervise
and Provide On-the-Job Training
We substantiated the allegation that the complainant’s supervisor failed to provide
adequate supervision. Further, we noted that some employees did not believe they
received adequate on-the-job training. To enhance on-the-job-training, DCAA should
consider implementing a strong mentor program whereby a senior auditor assists junior
auditors in performing their assignments.

Allegation. The complainant stated that the supervisor she worked for in 2007 and 2008
provided very little guidance, even when she had no experience performing a particular
type of audit. Her supervisor would simply tell her, “If you ask a question, have the
answer when you come to me.”



                                       12
                             FOR OFFICIAL USE ONLY
Background. As discussed in Finding D above entitled “Improperly Removed Finding
From Audit Report,” the Quality Assurance Division reviewed several audits as part of a
quality review, including one of the complainant’s audits issued on July 21, 2008. The
Quality Assurance Division found several deficiencies associated with the complainant’s
audit and others. In particular, they also found that insufficient supervisory review and
involvement was responsible, in part, for the deficiencies. Central Region management
agreed with the deficiencies, and stated, “The root cause of the deficiency was the lack of
supervisory involvement.”

As part of DCAA Internal Review’s investigation of this allegation, it evaluated the
adequacy of the training and development provided by the two supervisors who had
junior auditors assigned to their team. The Internal Review team concluded that the two
supervisors did not provide adequate or timely feedback to trainees on their performance
in accordance with DCAA and Central Region policy. For example, a trainee
with 6 months of experience had not received any interim evaluations even though
DCAA policy requires that supervisors prepare them every 3 months. The same
supervisors also did not adequately develop Individual Development Plans 8 for trainees
in accordance with agency policy. A review of the plans for some of the trainees
disclosed that no senior auditor was assigned to assist the trainee in their assignments.

Our Review. We reviewed the results of the Quality Assurance review. Of the eight
audits reviewed by the Quality Assurance Division, five (63 percent) were found to have
insufficient supervisory involvement. Of the five with inadequate supervisory
involvement, two involved the complainant’s supervisor. We reviewed these two audits
and agree with the Quality Assurance Division that they lacked supervisory involvement.
Therefore, we substantiated the allegation that the complainant’s supervisor failed to
provide adequate supervision.

We also noted indications that supervisors were not providing adequate on-the-job
training to employees, particularly junior auditors (grade 11 and below). Four of the five
junior auditors we interviewed expressed that they had not received adequate supervisory
or on-the- job assistance with their assignments. For example, junior auditors described
the following experiences:

        x    my mentor provided a list of applications and a copy of a working paper
             package. I found help in the office by going from auditor to auditor asking for
             their assistance;
        x    not much feedback on assignments from my supervisors; and
        x    I only had a mentor on my first audit, and believe management has a sink or
             swim mentality.

GAGAS and DCAA policy requires staff to be properly supervised. GAGAS 7.52
and 7.54 (as well as DCAA’s Contract Audit Manual, Section 2-503), states that audit

8
  An Individual Developments Plan serves as a tool to facilitate discussion between the employee and the
supervisor regarding the employee’s career and professional goals, competencies, and to assist in
identifying training needs.


                                            13
                                  FOR OFFICIAL USE ONLY
staff should be properly supervised to ensure that the audit work is properly conducted,
the audit objectives are accomplished, and the staff is provided effective on-the-job
training. Clearly, the field audit office covered in this review did not consistently provide
adequate supervision and on-the-job training. In July 2008, DCAA lowered the ratio of
auditors to supervisors in order to enhance agency-wide supervision of audits and on-the-
job training. However, one of the more common complaints we continue to receive from
auditors is the lack of adequate on-the-job training.

The DCAA Personnel Manual, Chapters 15 and 21, address the training and
development of auditors. Chapter 15 states:

              While supervisors retain ultimate responsibility for the training and development
              of new auditors, trainees should also be assigned to work with journey-level
              auditors on various audit assignments. The journey-level auditors will provide
              assistance to the supervisor in the training and development of the new hires.
              Typically, the journey-level auditor will: guide and assist the auditor in
              performing specific parts of audit programs; coach the new auditor on audit
              techniques useful in accomplishing assigned parts of an audit program; identify
              additional training the new auditor may require for skill development; and review
              completed assignments to appropriately satisfy audit program objectives.
              (emphasis added)

Despite this procedure, DCAA field audit offices do not always assign a journey-level
auditor to assist trainees, even when the trainee or junior auditor does not possess the
requisite training and experience to effectively perform an audit. DCAA has occasionally
employed a mentor program to assist trainees and junior auditors in performing audits.
However, DCAA has not consistently utilized the mentor program from year to year, or
even region to region. In its 2009 report, GAO also noted that DCAA did not provide
consistent on-the-job training to new auditors. In the past, DCAA management often
discouraged the use of the mentor program in an effort to reduce the additional indirect
mentor time charged by the journey-level auditor. The manager of the field audit office
covered in this review told us that his office does not utilize a formal mentor program.

DCAA should consider establishing a formal and robust mentor program to augment the
supervisor’s responsibility for providing adequate on-the-job training and supervision to
auditors.


Finding F. Unprofessional Workplace
We substantiated the complainant’s allegation that the manager of the complainant’s field
audit office made inappropriate, unprofessional, and disrespectful remarks toward several
subordinates on numerous occasions.

Allegation. The complainant stated that the supervisor’s first line manager (the manager
of the field audit office) was unprofessional towards her and other subordinates on
several occasions, and harassed her about submitting late assignments.



                                         14
                               FOR OFFICIAL USE ONLY
Background. The Internal Review team thoroughly investigated this allegation and
tentatively concluded that the manager of the field audit office:

       x   engaged in verbal and written disrespectful, offensive, and unprofessional
           language toward employees. In some instances, the unprofessional language
           was made in a public setting where other employees heard it;
       x   inappropriately mentioned salaries of employees while discussing
           performance issues with those employees. For example, the manager told the
           complainant she “probably gets paid around $80,000 and that DCAA pays
           benefits of around $50,000 and that is a lot of money to pay to do that audit;”
           and
       x   handled a situation where the manager questioned the complainant about the
           status of her assignment in an untactful and unprofessional manner. In an
           email exchange with the complainant, the Internal Review team concluded
           that the tone and verbiage used by the manager was unnecessary and
           inappropriate.

The Internal Review team also tentatively concluded that a supervisor who witnessed the
manager’s inappropriate behavior failed to report the behavior to upper management.
Internal Review plans to recommend appropriate action based on its tentative
conclusions. In 2011, the DCAA Deputy Director proposed to discipline the manager of
the field audit office for other unrelated misconduct. The manager resigned from DCAA
prior to implementation of the proposed discipline.

Our Review. We interviewed all field audit office employees regarding this allegation,
including the office manager. We confirmed the incidents of unprofessional behavior
and remarks based on our interviews and our review of the DCAA Internal Review
investigation file. Multiple auditors told us that the manager of the field audit office
yelled at them about assignment due dates and other issues in a public area. While
management has the right to question subordinates about the status of audits, they must
remain professional in doing so. The manager acknowledged to us that he yelled at one
employee in a public area and probably used inappropriate language. He also
acknowledged asking about salary amounts during performance conversations.

Yelling and other forms of inappropriate and unprofessional behavior by any agency
employee should never be tolerated. Management, in particular, must be held to a very
high standard of conduct. In this case, we agree with DCAA Internal Review’s tentative
conclusions and planned recommendations. We have no additional recommendations
associated with this allegation.




                                       15
                             FOR OFFICIAL USE ONLY
Management Comments on Findings and
Our Response
Management Comments
The Director, DCAA agreed with all findings except Finding B, “Delayed Promotion Due
to Clerical Error.” Specifically, the DCAA Director disagreed with our position that the
complainant’s promotion cannot be retroactively changed because the delay occurred
before the authorizing official approved it. DCAA believes the failure of the supervisor
to monitor promotion dates represents a laxity in supervision, which is a form of
misconduct subject to potential disciplinary action. According to DCAA, the
complainant should be made whole as a result of the misconduct.

Our Response
We disagree with DCAA. Our review of the Back Pay Act and relevant case law
disclosed no authority for granting a retroactive promotion under this circumstance, even
though the supervisor intended to promote the employee on time. We also do not believe
the Agency has the authority to grant a retroactive promotion on the basis that the
supervisor’s actions constituted “misconduct.” We note that, according to DCAA, no
disciplinary action has been taken against the supervisor for the alleged “misconduct.”
The DOD Inspector General and DCAA have agreed to jointly request assistance from
the DOD Office of the General Counsel to resolve this matter.

Recommendations, Management Comments,
and Our Response
We recommend that the Director, Defense Contract Audit Agency:

   1. Perform a comprehensive review of its policies, procedures, and training for
      reporting potentially derogatory events, and make appropriate changes to
      those procedures in order to ensure compliance with the requirements
      contained in Paragraph C9 of DOD 5200.2-R.

       Management Comments
       The Director, DCAA concurred. DCAA is making the necessary changes, such as
       issuing clear instructions to all DCAA employees about their reporting
       responsibilities relating to potential security issues, violence in the workplace
       issues, and                   DCAA will place its relevant security policy in an
       easily accessible location on the Agency's intranet. DCAA will also revise
       Technical Indoctrination and supervision courses to include training on how to deal
       with security issues, violence in the workplace issues, and                DCAA will
       accomplish these actions by April 29, 2011.




                                       16
                             FOR OFFICIAL USE ONLY
   Our Response
   The planned management actions are responsive. No additional comments are
   required.

2. Assess the adequacy of current quality assurance procedures for timely
   processing of career-ladder promotions when the employee meets
   performance, time-in-grade, and other applicable requirements.

   Management Comments
   The Director, DCAA concurred. DCAA is making process improvements, including
   better tracking of promotion eligibility dates by human resource officers and better
   communication/reminders of those dates to the supervisors. DCAA will complete the
   actions by April 29, 2011.

   Our Response
   The planned management actions are responsive. No additional comments are
   required.

3. Implement quality assurance procedures for ensuring that employees receive
   timely performance appraisals and other forms of feedback.

   Management Comments
   The Director, DCAA concurred. By June 30, 2011, DCAA will assess the
   adequacy of its internal controls for ensuring timely performance appraisals and
   implement strengthened controls.

   Our Response
   The planned management actions are responsive. No additional comments are
   required.

4. Evaluate the significance of an audit finding that a supervisor improperly
   dropped from a draft report on a contractor’s Earned Value Management
   System, and determine if the underlying audit report should be rescinded.

   Management Comments
   The Director, DCAA concurred. Based on an Internal Review Department
   assessment, DCAA will rescind the audit report by March 31, 2011.

   Our Response
   The planned management actions are responsive. No additional comments are
   required.

5. Consider establishing a strong and robust mentor program, which involves
   the assignment of a senior auditor to assist junior auditors (auditors below


                                   17
                         FOR OFFICIAL USE ONLY
grade 12) in performing audits, to enhance the on-the-job training program
used within Defense Contract Audit Agency.

Management Comments
The Director, DCAA concurred. DCAA adopted a plan to improve on-the-job
training, including the potential establishment of a more formal program involving
senior auditors assisting non-senior auditors. The improvements will begin by
September 30, 2011.

Our Response
The planned management actions are responsive. No additional comments are
required.




                                18
                      FOR OFFICIAL USE ONLY
Scope and Methodology
To determine the validity of the Hotline complaint addressed in this report, we:

       x     reviewed applicable, public law, regulations, professional standards, DOD
             Directives; and DCAA procedures;
       x     interviewed selected DCAA security office personnel, and all employees at
             the field audit office where the complainant is stationed;
       x     examined DCAA security office files maintained on the complainant;
       x     reviewed selected audit files, emails, and personnel records related to the
             allegations; and
       x     examined internal reviews conducted by DCAA which relate to the
             complaint, including a Quality Assurance review completed in 2008 and a
             DCAA Internal Review investigation that is ongoing.

We performed this review from April through December 2010.

Use of Computer-Processed Data
We did not rely on any computer-processed data as part of our review.

Prior Coverage
In the last 5 years, the DOD Inspector General has issued three reports related to work
environment and other issues at DCAA, including

       x   Report No. D-2009-6-009, “Defense Contract Audit Agency Audit Work
           Deficiencies and Abusive Work Environment Identified by the Government
           Accountability Office,” August 31, 2009. (The unrestricted DOD Inspector
           General report can be accessed at http://www.dodig.mil).

       x   Report No. D-2011-6-001, “Hotline Allegations Involving Management
           Harassment of a Complainant in the Defense Contract Audit Agency Western
           Region,” October 29, 2010.

       x   Report No. D-2011-6-003, “Hotline Complaint Regarding Allegations of
           Abusive Behavior by a Supervisor in the Defense Contract Audit Agency
           Northeastern Region,” February 10, 2011.




                                       19
                             FOR OFFICIAL USE ONLY
Defense Contract Audit Agency Comments




                        20
              FOR OFFICIAL USE ONLY
          21
FOR OFFICIAL USE ONLY
